No.A-_ __

3ln tbe $upreme ((ourt of tbe mlniteb $tates
KENNETH DANIELS,

Applicant,

V.

UNITED STATES OF AMERICA,

Respondent.
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
applicant Kenneth Daniels respectfully requests a 60-day extension of time, to and
including July 7, 2019, within which to file a petition for a writ of certiorari to review
the judgment of the United States Court of Appeals for the Third Circuit in this case.
The Third Circuit issued its decision on February 7, 2019. Unless extended, the time to
file a petition for a writ of certiorari will expire on May 8, 2019. The jurisdiction of this
Court will be invoked under 28 U.S.C. § 1254(1).
A copy of the Third Circuit's opinion is attached.
1. Applicant entered a guilty plea to one count of being a felon in possession _o f a

firearm in violation of 18 U.S.C. §§ 922(g)(l) and 924(e), while reserving his right to
appeal on the question of whether a violation of the Pennsylvania Controlled Substance, Drug, Device and Cosmetic Act (35 Pa. Stat. Ann.§ 780-113(a)(30)) qualifies as
a "serious drug offense" under the Armed Career Criminal Act (ACCA). Slip op. 1-3. If,
as the lower court held, applicant's prior conviction qualifies, then Section 924(e) trig-

2

gers a 180-month mandatory minimum sentence and allows for up to 210 months'
imprisonment under the Sentencing Guidelines. Slip op. 4. Otherwise, applicant's sentencing range under the Guidelines would have been 92 to 115 months. Ibid.
During sentencing, the government alleged that applicant qualified as an armed
career criminal because he had at least three prior convictions for possession with
intent to deliver narcotics under Pennsylvania law. Slip op. 3. Applicant, in turn,
contended that the elements of the state drug statute were broader than those under
federal law. Slip op. 4. Specifically, applicant argued that "Pennsylvania's treatment of
solicitation and mere offers to sell" as criminal attempts in some cases made Pennsylvania law broader than federal law-and thus that the state offenses were not ACCA
predicate offenses under the categorical approach. Ibid.
The district court rejected that argument and sentenced him to 180 months'
imprisonment in accordance with the ACCA's mandatory minimum. Slip op. 4.
2. The court of appeals affirmed. Slip op. 3. The court recognized that the appeal
turned on two issues: first, whether the ACCA's "definition of a 'serious drug offense'
encompasses attempts (as defined under federal law)"; and second, and if so, whether
"the scope of attempt* * * liability under Pennsylvania law is coextensive with [that]
under federal law." Slip op. 2-3.
Considering the first question, the court observed that the ACCA defines a
"serious drug offense" as, among other things, "an offense under the Controlled Substances Act." Slip op. 5 (quoting 18 U.S.C. § 924(e)(2)(A)). Reasoning from there, the
court held that the ACCA's definition of a "serious drug offense" encompasses attempts,
and further that mere solicitation of a sale of a controlled substance can qualify as an
attempt for the purposes of the CSA. Slip op. 9, 28-30.

3

Moving to the second question, the court observed that Pennsylvania law likewise "treat[s] some solicitations as attempts." Slip op. 28. It thus determined that "the
scope of attempt*** liability under Pennsylvania law is coextensive with [that] under
federal law." Slip op. 9.
Thus, "answer[ing] both questions m the affirmative," the court affirmed
applicant's sentence. Slip op. 3.
3. As the court below recognized, however, the courts of appeals are divided on
the question whether solicitation can, by itself, constitute an attempt under the federal
Controlled Substances Act.
The Ninth Circuit has held that "offering to deliver a controlled substance does
not cross the line between preparation and attempt for the purposes of the [federal]
Controlled Substances Act." Slip op. 29 (quoting Sandoval v . Sessions, 866 F.3d 986,
99,0 (9th Cir. 2017)). See also United States v. Rivera-Sanchez, 24 7 F .3d 905, 909 (9th
Cir. 2001); Leyva-Licea v. INS, 187 F.3d 1147, 1150 (9th Cir. 1999).
The Third Circuit reached the opposite conclusion in Martinez v . Attorney

General, 906 F.3d 281, 286 (3d Cir. 2018), where it held that "[s]olicitation, like any
number of other acts, can amount to a federal attempt" under the CSA. Applying that
precedent below, the Third Circuit thus "expressly disagreed with" the Ninth Circuit's
decision in Sandoval. Slip op. 29-30 (citing Martinez).
For its part, the government has taken inconsistent positions. In United States v .

Ibarra-Luna, 628 F .3d 712 (5th Cir. 2010)-a U.S. Sentencing Guidelines case-the
government favorably cited the Ninth Circuit's decision in Rivera-Sanchez for the
proposition that "the Controlled Substances Act neither mentions solicitation nor
contains any broad catch-all provision that could even arguably be read to cover
solicitation." See U .S. Br. at 14, United States v . Ibarra-Luna, 2010 WL 5066884 (5th

4

Cir. 2010). The Fifth Circuit's opinion recognized that concession, ruling on that basis
that "mere offer to sell, without evidence of possession or transfer, is tantamount to
solicitation and is not proscribed by the Controlled Substances Act" and reversing the
imposition of an enhanced sentence. Ibarra-Luna, 628 F.3d at 716.
Yet in this case, the government took the opposite view, insisting that, assuming
that the state-law offense here covers "solicitation to commit a drug offense, a violation
of that section would still be a 'serious drug offense' as defined in ACCA." U.S. Br. at
30, United States v. Daniels, 2018 WL 3020098 (3d Cir. 2018).
4. As the petition will show, the significant practical importance of the question
presented weighs further in favor of certiorari. ACCA mandatory minimum sentences
are common. In every year since 2010, more than 5,000 people in federal prison were
serving sentences under the ACCA. William H. Pryor Jr. et al., Mandatory Minimum

Penalties for Firearms Offenses in the Federal Criminal Justice System, U.S.
Sentencing Comm'n, 46 (Mar. 2018), perma.cc/GL2A-Q6P4. And notwithstanding the
possibility of relief from the mandatory minimum under 18 U.S.C. 3553(e) for providing
substantial assistance to the government in the investigation of another prosecution,
the vast majority of those convicted of an ACCA offense faced the full 180-month mandatory minimum. See id. at 47.
This case illustrates the practical effect of the split in each case in which it
arises. Had the Third Circuit interpreted federal law consistently with the Ninth
Circuit, applicant would have faced a Guidelines range of92-115 months. But because
he had the misfortune of living in the Third Circuit, he is now serving a mandatory
180-month minimum.
5. Good cause exists for an extension of time to prepare a petition for a writ of
certiorari in this case. Undersigned counsel was retained to prepare the petition in this

5

case only recently and has not yet had an opportunity to familiarize himself with the
full trial or appellate record. Undersigned counsel also has several other matters with
proximate due dates before this Court, including a reply in support of certiorari due in

Hall v . Idaho, No. 18-679, on April 9, 2019; a reply in support of certiorari due inShabo
v. Sessions, No. 18-827, due on April 16, 2019; a reply in support of certiorari due in

Renteria v. United States, No. 18-1052, on April 29, 2019; and the merits briefing in
Kansas v. Garcia, No. 17-834, for which a briefing schedule is currently being
negotiated.
For the foregoing reasons, the application for a 60-day extension of time, to and
including July 7, 2019, within which to file a petition for a writ of certiorari should be
granted.
March 29, 2019

Respectfully submitted.

~ew½r

MICHAEL B. KIMBERLY

Mayer Brown LLP
1999 K Street, N .W.
Washington, D. C. 20006
(202) 263-3000
mkimberly@mayerbrown.com

